<html>
<title> - NOMINATIONS OF DAVID J. GLAWE AND DAVID P. PEKOSKE</title>
<body><pre>[Senate Hearing 115-357]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 115-357

                   NOMINATIONS OF DAVID J. GLAWE AND
                            DAVID P. PEKOSKE

=======================================================================

                                HEARING

                              BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             FIRST SESSION

                               __________

        NOMINATIONS OF DAVID J. GLAWE TO BE UNDER SECRETARY FOR
         INTELLIGENCE AND ANALYSIS, U.S. DEPARTMENT OF HOMELAND
       SECURITY, AND DAVID P. PEKOSKE, TO BE ASSISTANT SECRETARY,
  TRANSPORTATION SECURITY ADMINISTRATION, U.S. DEPARTMENT OF HOMELAND 
                                SECURITY

                               __________

                             JULY 11, 2017

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
       Committee on Homeland Security and Governmental Affairs
        
        

                  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        




                       U.S. GOVERNMENT PUBLISHING OFFICE
                
27-019 PDF                      WASHINGTON: 2018        





        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman

JOHN McCAIN, Arizona                 CLAIRE McCASKILL, Missouri
ROB PORTMAN, Ohio                    THOMAS R. CARPER, Delaware
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
MICHAEL B. ENZI, Wyoming             GARY C. PETERS, Michigan
JOHN HOEVEN, North Dakota            MAGGIE HASSAN, New Hampshire
STEVE DAINES, Montana                KAMALA D. HARRIS, California

                  Christopher R. Hixon, Staff Director
                Gabrielle D'Adamo Singer, Chief Counsel
               Margaret E. Daum, Minority Staff Director
                Anna E. Laitin, Minority Policy Adviser
                     Laura W. Kilbride, Chief Clerk
                   Bonni E. Dinerstein, Hearing Clerk




                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator McCaskill............................................     2
    Senator Portman..............................................     8
    Senator Tester...............................................    10
    Senator Lankford.............................................    13
    Senator Harris...............................................    16
    Senator Hassan...............................................    18
    Senator Carper...............................................    20
    Senator Paul.................................................    23
Prepared statements:
    Senator Johnson..............................................    33
    Senator McCaskill............................................    35


                               WITNESSES

                         Tuesday, July 11, 2017

David J. Glawe to be Under Secretary for Intelligence and 
  Analysis, U.S. Department of Homeland Security
    Testimony....................................................     4
    Prepared statement...........................................    38
    Responses to post-hearing questions..........................    41
    Responses to post-hearing questions from SSCI................    52
    Letter of support............................................    64
David P. Pekoske to be Assistant Secretary, Transportation 
  Security Administration, U.S. Department of Homeland Security
    Testimony....................................................     5
    Prepared statement...........................................    65
    Biographical and financial information.......................    68
    Letter from the Office of Government Ethics..................    80
    Responses to pre-hearing questions...........................    83
    Responses to post-hearing questions..........................    99



 
           NOMINATIONS OF DAVID J. GLAWE AND DAVID P. PEKOSKE

                              ----------                              


                         TUESDAY, JULY 11, 2017

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to other business, at 10:03 
a.m., in room SD-342, Dirksen Senate Office Building, Hon. Ron 
Johnson, Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Paul, Lankford, Enzi, 
Daines, McCaskill, Carper, Tester, Heitkamp, Peters, Hassan, 
and Harris.

            OPENING STATEMENT OF CHAIRMAN JOHNSON\1\

    Chairman Johnson. This nomination hearing is called to 
order.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 33.
---------------------------------------------------------------------------
    We are meeting today for a nomination hearing to consider 
David J. Glawe to be Under Secretary for Intelligence and 
Analysis for the U.S. Department of Homeland Security (DHS); 
and Admiral David Pekoske to be Assistant Secretary for 
Transportation Security Administration (TSA), U.S. Department 
of Homeland Security.
    These are two incredibly important positions, particularly 
at this point in time with all the threats we face to our 
transportation sector as well as across the globe and the 
threats to our homeland.
    So the Under Secretary for Intelligence and Analysis (I&A) 
at the Department of Homeland Security is responsible for 
leading the Department of Homeland Security's Office of 
Intelligence and Analysis and also serves as the Department's 
Chief Intelligence Officer. In these roles, the Under Secretary 
is responsible for fusing the Department's streams of 
intelligence and analysis to develop a common operational 
understanding of threats to the homeland, and sharing relevant 
information within DHS among State, local, and private sector 
partners. As the Department's Chief Intelligence Officer, the 
Under Secretary is also responsible for overseeing intelligence 
across DHS and collaborating with intelligence community (IC) 
partners.
    Multiple reviews of the Office of Intelligence and Analysis 
by this Committee, watchdog organizations, and others have 
raised concerns about the quality and value of its 
intelligence, the lack of coordination of component 
intelligence activities, and the low morale and human resources 
(HR) challenges facing the office. The next Under Secretary has 
an opportunity to strengthen the Department's intelligence 
program and, therefore, help Secretary Kelly secure the Nation.
    The DHS Assistant Secretary, also known as the 
Transportation Security Administrator, is responsible for the 
safety and security of the country's transportation systems, 
ensuring the free flow of people and commerce. The 
Administrator's job is to assess intelligence and threats to 
the Nation's transportation sector and direct the approximately 
53,000 Transportation Security Administration employees in 
protecting hundreds of millions of travelers each and every 
year.
    The TSA was created after the September 11th attacks to 
disrupt future terrorist plots and safeguard the Nation's 
transportation system. The agency oversees aviation security as 
well as rail, highway, mass transit, and pipeline security with 
an overall budget of over $7 billion. Aviation remains a target 
for foreign and domestic terrorists. To achieve its mission, 
the TSA need to continually improve its screening capabilities 
and strive to adapt to the terrorist threats of the future. The 
next Administrator has the opportunity to increase the TSA's 
screening capabilities, improve workforce morale, and deliver 
effective and cost-efficient security to the traveling public.
    With that, I will turn it over to Ranking Member McCaskill.

           OPENING STATEMENT OF SENATOR MCCASKILL\1\

    Senator McCaskill. Thank you, Mr. Chairman. I appreciate 
you holding this hearing, and I want to thank the two nominees 
for their willingness to serve. I am particularly pleased to be 
here today given the strong qualifications and distinguished 
careers of the nominees that are in front of us today. You have 
both had exemplary public service careers, and we need 
individuals like you leading our homeland security and 
intelligence agencies.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator McCaskill appears in the 
Appendix on page 35.
---------------------------------------------------------------------------
    You both have difficult jobs ahead of you. The offices you 
seek to lead are essential ones for the protection of our 
homeland. TSA has the visible role of protecting air travel as 
well as the less-well-known job of securing ground, rail, and 
maritime security. And the Office of Intelligence and Analysis 
is a component of the intelligence community that informs the 
work of all DHS agencies and is charged with sharing 
intelligence with local, State, and tribal governments.
    In addition to the challenges you will face in executing 
the mission of these organizations, you will face a serious 
challenge given the current morale of the workforce in these 
offices. Both TSA and I&A are seen by their employees as being 
among the worst places to work in the Federal Government. 
According to a survey of Federal agencies, I&A is ranked 304th 
out of 305 Federal agency subcomponents in employee morale. TSA 
is doing only slightly better, ranked at 303 out of 305. Strong 
leadership will be necessary to strengthen the workforce at 
these offices and ensure that these components are recruiting 
and retaining the most qualified talent. The culture and 
sentiment in an office enormously contribute to hiring and 
keeping the best personnel, who in turn are working hard to 
keep us safe.
    Mr. Pekoske, with threats to our transportation system on 
the rise, TSA has an essential role in protecting our homeland. 
I have made clear several times my concerns about the 
President's proposed cuts to the TSA budget, particularly when 
it comes to funds for counterterrorism programs. Once you are 
confirmed, I expect you to make clear to the Administration at 
the highest levels what you need to do your job, and you should 
not back down until the Administration proposes a budget that 
works for you.
    Mr. Glawe, I expect you to ensure that the work of your 
office remains apolitical and informs decisions at the highest 
level of the Department and the intelligence community. This 
Administration should be making policy decisions based on 
intelligence and facts, and it is your office that has the data 
and the analytic tools to make sure that the policy decisions 
are sound.
    I look forward to our conversation today and working with 
you in the future. Mr. Pekoske, I understand you told the 
Committee staff this week that you would come in to sit down 
with them once you have been on the job for several months. I 
really appreciate that offer, and I expect my staff will take 
you up on it. I hope both of you will remain accessible and 
responsible to this Committee once you are confirmed.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator McCaskill.
    The Committee wants to welcome the witnesses and your 
families. I want to thank you for your past service and your 
willingness to serve again. I also want to thank your families 
for their sacrifice because these are big, important jobs and 
you are going to be busy and away from home. So it is certainly 
going to be a family sacrifice as well. And I know in your 
opening statements you will introduce your family members and 
your friends and supporters during your comments.
    It is the tradition of this Committee to swear in 
witnesses, so if you will both rise and raise your right hand? 
Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Glawe. I do.
    Admiral Pekoske. I do.
    Chairman Johnson. Please be seated.
    Our first nominee is David Glawe. Mr. Glawe has extensive 
experience in national security and law enforcement. He 
currently serves as a Special Assistant to the President and 
until recently served as the Assistant Commissioner and Chief 
Intelligence Officer in the Customs and Border Protection (CBP) 
component at the Department of Homeland Security. Mr. Glawe has 
previously served as a Federal Bureau of Investigation (FBI) 
agent and as a Federal Agent with the U.S. Postal Inspection 
Service and started his career in public service as a Houston 
police officer. Mr. Glawe has a certificate from the John F. 
Kennedy School of Government at Harvard University and a 
Bachelor of Arts degree from the University of Northern Iowa.
    Mr. Glawe, in this role I think your extensive background 
in law enforcement across the spectrum, from local, State, and 
Federal, is just going to serve you well. It is just crucial. 
So, again, we appreciate your willingness to serve and look 
forward to your testimony.

   TESTIMONY OF DAVID J. GLAWE\1\ TO BE UNDER SECRETARY FOR 
INTELLIGENCE AND ANALYSIS, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Glawe. Chairman Johnson, Ranking Member McCaskill, 
Members of the Committee, thank you for the opportunity to be 
before you today as the President's nominee for Under Secretary 
for Intelligence and Analysis at the Department of Homeland 
Security. I am honored to have been nominated for this position 
by President Trump, and I am humbled to have received the 
support of Secretary Kelly, Deputy Secretary Duke, and Director 
of National Intelligence (DNI) Coats.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Glawe appears in the Appendix on 
page 38.
---------------------------------------------------------------------------
    Before I begin, I would like to take a moment to recognize 
my family. I am grateful for their support and sacrifices to 
allow me this opportunity. With us today is the bedrock of my 
life, my 20-year partner and husband, Perry Goerish, a 
Supervisory Special Agent at the FBI's Washington Field Office. 
Foremost in our mind are our two wonderful children, Alexis and 
Wyatt. I also want to thank the rest of my family and friends 
and co-workers who have supported me throughout my life. I 
would not have this opportunity without them.
    The mission statement of DHS is clear and direct: With 
honor and integrity, we will safeguard the American people, our 
homeland, and our values. DHS faces a complex and evolving 
threat environment and must work across the Federal Government, 
and in concert with our State, local, tribal, territorial, and 
private sector partners. As the only member of the U.S. 
intelligence community statutorily charged with sharing 
intelligence and information with our State, local, tribal and 
private sector partners, I&A enables DHS to execute this 
mission.
    Secretary Kelly's guidance is clear: He expects I&A to 
provide timely, useful, and operationally relevant intelligence 
to the DHS enterprise, the intelligence community, and our 
State and local partners. I have over 24 years in law 
enforcement and intelligence experience and, if confirmed, I 
will work to apply that knowledge I acquired and the lessons 
learned to make I&A a premier intelligence organization that 
drives operations, intelligence integration, information 
sharing, and the delivery of unique analysis to operators and 
decisionmakers that enables them to identify vulnerabilities, 
position resources, and ultimately mitigate threats.
    I&A has one of the broadest customer bases in the 
intelligence community, and meeting the many and varied demands 
of those customers is a challenge. I intend to focus I&A's 
analytic capacity on areas where they are positioned to add 
value, areas like trade, travel, cyber, border, marine, and 
aviation security, rather than duplicating work done elsewhere.
    I&A's greatest strength, without question, is its people. 
If confirmed, it will be my honor to lead the homeland 
intelligence professionals at I&A as we endeavor to implement 
Secretary Kelly's vision by meeting the needs of the primary 
customers, integrating intelligence and operations, and making 
I&A a diverse, mission-focused, and productive environment for 
the workforce.
    In closing, I would like to take a moment to recognize the 
important role that Congress plays in the success of I&A. If 
confirmed, I pledge to enable the Committee to fill that role 
by keeping you informed on I&A activities and developments. I 
am committed to transparency, and I look forward to partnering 
with you to move the organization forward and best protect the 
homeland.
    Mr. Chairman, I will stop there and submit the remainder of 
my comments for the record. Thank you again for the opportunity 
to appear before you today, and I look forward to answering 
your questions.
    Chairman Johnson. Thank you, Mr. Glawe.
    Our next nominee is Vice Admiral David Pekoske. Vice 
Admiral Pekoske was Vice Admiral and Chief Operating Officer 
(COO) of the U.S. Coast Guard (USCG) when he retired in 2010 
after 32 years of service, and, again, we thank you for that 
service. Prior to becoming Vice Admiral, he was the Commander 
for the Pacific Area Defense Forces, protecting 73 million 
square miles of territory throughout the Pacific region. After 
retiring from the Coast Guard, Vice Admiral Pekoske was group 
president for the national security group at A-T Solutions and 
vice president for national programs at Pacific Architecture 
and Engineering. He has extensive experience in the homeland 
security field from his time in the Coast Guard and in the 
private sector covering crisis management, strategic 
operations, financial and risk management, and 
counterterrorism. Vice Admiral Pekoske received his Bachelor's 
degree from the U.S. Coast Guard Academy and holds two Master's 
degrees, one from Columbia University in economics and one from 
the Massachusetts Institute of Technology (MIT) in business 
management.
    And, Vice Admiral, I just have to say that reading your 
opening statement, which you will be presenting here, your 
extensive experience, I cannot think of somebody more qualified 
at this point in time to lead such an important agency. So, 
with that, I look forward to your testimony.

  TESTIMONY OF DAVID P. PEKOSKE\1\ TO BE ASSISTANT SECRETARY 
  TRANSPORTATION SECURITY ADMINISTRATION, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Admiral Pekoske. Thank you, Mr. Chairman, and good morning, 
Chairman Johnson, Ranking Member McCaskill, and distinguished 
Members of this Committee. It is a privilege to appear before 
you today as the President's nominee to lead the Transportation 
Security Administration. I am honored to have been nominated by 
President Trump for this important national security position, 
and if confirmed, I look forward to the opportunity to work 
with Secretary Kelly, Deputy Secretary Duke, and the entire 
team at the Department of Homeland Security.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Pekoske appears in the Appendix 
on page 65.
---------------------------------------------------------------------------
    I have always benefitted from the strong support of my 
family and am honored to introduce my wife, Michele, who is 
sitting right behind me, who joins me at this hearing today. 
Together, we raised four terrific children, all very successful 
in their own right. They and many members of our family are 
watching from locations around the country. I thank them for 
their love and support and am glad they are able to be present 
today, in person and virtually, for this important event in my 
professional life.
    Let me begin by recognizing the men and women of the 
Transportation Security Administration. Each and every one 
contributes to the security of our Nation's transportation 
system and works tirelessly to earn the trust and respect of 
the American people. Their work is critical to the security of 
our aviation and surface transportation systems, and they have, 
in my opinion, done an outstanding job in protecting us from an 
ever present and very dynamic threat. It would be my privilege 
to join them as their Administrator and bring my leadership, 
skills, and experience directly to the effort of securing our 
homeland.
    TSA could not accomplish its mission were it not for the 
strong partnerships it has with other Federal partners, State 
and local public safety and law enforcement agencies, the 
airline industry, the government services industry, airport and 
surface transportation system owners and operators, and 
international partners. Throughout my professional career, I 
have seen firsthand the importance and enormous value of strong 
partnerships and professional relationships. This is the 
extended TSA team, and it would be my privilege to join them as 
well in our collective goal of ensuring transportation security 
in the United States.
    I had the high honor of serving our country in the United 
States Coast Guard for most of my adult life. I am forever 
grateful to my Coast Guard colleagues for their investment in 
my leadership and professional development. My career in the 
Coast Guard provided me with the background and the experience 
that are very relevant to the position of TSA Administrator. 
Specifically, I performed in top leadership positions of a 
large operating agency with a security and law enforcement 
mission in the Department of Homeland Security. I have 
experience in operational risk management and risk mitigation, 
and I have experience working with other Federal, State, and 
local law enforcement and public safety agencies, industry and 
interest groups, and international partners and international 
standard-setting bodies.
    Following my Coast Guard service, I joined a very 
successful mid-market company in the government services 
industry. My experience in the private sector was very 
valuable, and I learned how government can be a better consumer 
of private sector expertise and support.
    Today, as you know, we face a multitude of threats that are 
persistent and ever evolving. We know that certain terrorist 
organizations remain focused on commercial aviation and 
disrupting the freedoms we enjoy as an open society. Staying 
ahead of these threats and ensuring that appropriate measures 
are in place to ensure security effectiveness will continue to 
be TSA's most significant challenge.
    If confirmed, it would be my honor to serve in what I 
consider one of the most challenging jobs in government. My 
overarching goal would be to lead TSA to an ever stronger 
position as an effective and efficient provider of security for 
our transportation systems, especially aviation, with a strong 
and growing level of public confidence in the agency's mission 
performance. I will articulate a clear vision for TSA to ensure 
all of our efforts contribute to its achievement.
    My full intention is to serve as TSA Administrator, if 
confirmed, for as long as the President and Secretary wish me 
to remain in this position. I think leadership continuity at 
TSA is very important. If confirmed, I would be the 13th 
Administrator in 16 years when you include those in an acting 
capacity.
    I am always reminded of a quote of Alexander Hamilton when 
he, as our first Secretary of the Treasury, issued instructions 
to the Commanding Officers of the Revenue Cutters Service, 
which is the predecessor to the Coast Guard. Alexander Hamilton 
issued these instructions in 1791, approximately 226 years ago 
today. He said, in part, ``They will always keep in mind that 
their countrymen are freemen, and, as such are impatient of 
everything that bears the least mark of a domineering spirit. 
They will, therefore, refrain, with the most guarded 
circumspection, from whatever has the semblance of haughtiness, 
rudeness, or insult.'' I think this sage guidance from one our 
country's Founding Fathers applies to all Federal officials 
involved in law enforcement and security operations today. It 
is something that will guide me if I am so fortunate as to have 
the opportunity to lead TSA.
    TSA is the face of the Federal Government to millions of 
air travelers every day. These travelers rightfully expect 
effective and efficient screening with a minimum of delay by 
government officials who treat them with respect. I will work 
diligently with the entire TSA workforce to ensure TSA 
continues to meet this standard. We must balance the demands of 
security with the imperatives of liberty guaranteed in our 
Constitution.
    In closing, I thank President Trump and Secretary Kelly for 
their confidence in my ability to lead TSA. Chairman Johnson, 
Ranking Member McCaskill, and distinguished Members of this 
Committee, I thank you for your courtesies during this 
confirmation process and for the opportunity to appear before 
you today. I look forward to answering your questions.
    Chairman Johnson. Thank you, Vice Admiral.
    There are three questions the Committee asks every nominee 
for the record, and I will ask the questions, and each one of 
you can answer them separately.
    First, is there anything you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated? Mr. 
Glawe.
    Mr. Glawe. No.
    Chairman Johnson. Vice Admiral.
    Admiral Pekoske. No, sir.
    Chairman Johnson. Do you know of anything, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated? Mr. Glawe.
    Mr. Glawe. No.
    Chairman Johnson. Vice Admiral.
    Admiral Pekoske. No, sir.
    Chairman Johnson. Do you agree without reservation to 
comply with any request or summons to appear and testify before 
any duly constituted committee of Congress if you are 
confirmed? Mr. Glawe.
    Mr. Glawe. Yes.
    Chairman Johnson. Vice Admiral.
    Admiral Pekoske. Yes, sir, I do.
    Chairman Johnson. Again, I want to thank the Committee 
Members for showing up and attending, and out of respect for 
your time, what I will do is I will hold off on my questions 
and turn it over to Senator McCaskill.
    Senator McCaskill. I will do the same since so many of my 
colleagues are here, and I will be happy to defer to their 
questions and question at the end like you, Mr. Chairman.
    Chairman Johnson. Then it will be Senator Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Great. Thank you. And I thank the Chairman 
and Ranking Member for their allowing us to go because we have 
crazy schedules, and I appreciate the way they conduct the 
business of this Committee.
    Thank you both for your willingness to serve. I appreciate 
the fact that you both have extensive experience on the 
intelligence side, and in your case, Admiral, you have had 
extensive experience on the security side.
    I was struck by one thing you said, and that is that there 
have been 13 people in your position of supervising the TSA 
operations in 16 years, and you said you hoped to be able to 
stick around for a while.
    Admiral Pekoske. Yes, sir.
    Senator Portman. This is one of my concerns at DHS, 
honestly. We have the oversight responsibility for this 
gargantuan agency that I think was necessary; in other words, 
we needed to have a better response after 9/11 from the Federal 
Government level and bring together 23 departments and 
agencies. But we move people around a lot in that agency, and I 
am concerned about the impact that has on morale, on readiness 
in terms of your responsibilities.
    You are in a confirmation process here. I know you are not 
going to be able to say as much as maybe you can tell us once 
you are confirmed. But could you just for a second talk about 
that? Are you concerned about the amount of churning, the 
amount of changes in positions? I know sometimes within the 
Federal Government's system it is advantageous for an 
individual to change positions in order to increase 
compensation. And what can we do to address that? So if you 
could just talk about that for a second, particularly as it 
relates to TSA?
    Admiral Pekoske. Yes, sir. When Secretary Kelly asked me if 
I would consider the TSA position, one of the things that was 
important to me is that whatever I agreed to do in the future, 
that I did it not just for a very short period of time. And I 
committed to him and committed today at this hearing that I 
will serve as long as I am able to serve in that position. I 
think leadership continuity in an agency like TSA is critically 
important.
    Senator McCaskill mentioned the morale issues with the 
workforce, and I think that is one of my key focuses, should I 
be confirmed, is to place a lot of attention onto that issue, 
see if we cannot raise job satisfaction across the employee 
workforce, and also reduce attrition. And both will improve 
security effectiveness and security efficiency. So I am 
committed to do that, and I am committed to spending a lot of 
time with the workforce.
    Additionally, I think it is important that not just the top 
leader be in a position for a duration of time, but that the 
leaders that support that top leadership also have some level 
of continuity. And if confirmed, I will pay attention to that 
very carefully in the assignment of Senior Executive Service 
(SES) members inside TSA.
    Senator Portman. Well, thank you. Again, I think a number 
of us on this Committee would probably like to follow up with 
you on that once you are confirmed because I think that is a 
critical management challenge at DHS. And, again, thanks for 
your service.
    Mr. Glawe, your background, again, is very impressive, 
starting as a police officer, working your way up to the top 
ranks of intelligence gathering. One of my big concerns about 
your Department, how it operates, is how the fusion centers are 
getting information. I think some fusion centers work pretty 
well, others not so well. And a constant concern I hear back 
home in Ohio is the fact that sometimes information is not 
disseminated in an appropriate way, either not quickly enough 
or not at the level of detail where it really is effective and 
helpful. And we do put a lot of focus and resources into fusion 
centers, not just at the Federal Government level, but State 
and local governments, and particularly law enforcement spend a 
lot of time and effort on that.
    Can you talk to us about that challenge and how you intend 
to deal with it? I know you have already been in an acting 
capacity and having to deal with fusion centers. But, one, are 
they working? And, two, how could we better disseminate that 
information?
    Mr. Glawe. Senator, thank you for the question. And if 
confirmed, I look forward to working on the enterprise approach 
to fusion centers, and I would just start off with your 
question and answering it. I was fortunate enough to be on the 
Richmond Joint Terrorism Task Force (JTTF) with the FBI when 
Virginia started its first fusion center, so I was intimately 
aware of the relationship with the fusion centers with State 
and local law enforcement and some of the challenges that 
occurred then and then watching it progress over essentially 
the next 13 to 15 years or so. And the relationship with State 
and locals as coming from those organizations and working with 
them throughout my career is critical. I have met with all the 
Major Chiefs and Sheriffs Associations, the National Fusion 
Center Association, and I hear a reoccurring theme. They are 
absolutely necessary, but having a business enterprise approach 
to how they knit the intelligence on both disseminating 
intelligence to them and also receiving it from them is 
critical.
    The challenge is there are a lot of sheriffs and chiefs out 
there, and each fusion center operates independently. What I 
pledge is, if confirmed, to work with in an integrated approach 
to come up with an enterprise that has some consistency in how 
we are sharing intelligence, recognizing every fusion center is 
different. But from a Federal side and how we disseminate 
intelligence, it is going to be critical on how we have that 
enterprise approach. And I had a commitment from all the 
organizations to start working on that. So if confirmed, 
Senator, I look forward to working on that.
    Senator Portman. So a business enterprise approach in your 
mind means consistency, reliability. What does it mean in terms 
of the level of detail that you can provide? In other words, 
one of the complaints that I hear sometimes is that our fusion 
centers are not able to get the information that they really 
find actionable, and they are sometimes told after the fact. 
And, we have been blessed not to have more terrorist attacks, 
but certainly we have had some that could possibly have been 
thwarted had we had a better information flow from the Federal 
level or even the international level, Federal level, and right 
down to the State and local level.
    So talk to us about that for a minute. How can the business 
enterprise approach that you are advocating help with regard to 
getting that information in the right hands?
    Mr. Glawe. Sure, Senator. Thank you for the question. The 
tactical level intelligence that is needed by the fusion 
centers, so as threats are fluid and dynamic and changing, to 
disseminate that intelligence and to have an enterprise 
starting at DHS I&A and getting it out to the fusion center so 
it is accurate, correct, but also timely is the critical node. 
And as we have seen with the other intelligence organizations, 
a merging of a hybrid, of integrating intelligence and 
operation and fusing that intelligence, vetting it so it is 
appropriate and correct, but getting it out quickly. So it has 
to be tactical so they can adjust resources, readjust 
personnel, readjust their posture in the communities, be it 
from terrorist networks, cyber intrusions, transnational 
criminal organizations, the opioid epidemic that is devastating 
the United States, we have to produce tactical level 
enterprise, timely intelligence down range. And that is going 
to be a change of our business model. The I&A employees are 
incredibly dedicated. They want to do this. It is going to be 
creating a process to do it accurately and timely.
    Senator Portman. Well, again, once you are confirmed--and I 
think both of you will be--we look forward to working with you 
on that. I know this Committee has a strong interest in having 
fusion centers work, and I am not suggesting there is a cookie-
cutter approach. It is different in different regions. But I do 
think more continuity with regard to the fusion centers per the 
Admiral's comment about continuity would help, too, 
dissemination of information in a reliable way, consistent way, 
and ensuring that we can thwart these attacks on the homeland.
    Thank you for your service.
    Chairman Johnson. Senator Tester.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Thank you, Mr. Chairman. I also want to 
thank you and the Ranking Member for your courtesy. I very much 
appreciate that.
    Mr. Pekoske, first of all, thanks for stopping in 
yesterday. We talked a little bit about partnerships with other 
law enforcement agencies that TSA utilizes. Could you briefly 
talk about how important those partnerships are? Briefly, 
please.
    Admiral Pekoske. Yes, sir. And thank you for your time 
yesterday. I greatly enjoyed the meeting.
    As I said yesterday, I think partnerships--and I said it in 
my opening statement as well. Partnerships are absolutely 
critical to the success of TSA's security mission. There is no 
easier way to say it. They are absolutely critical. And I 
greatly appreciate the work that State and local law 
enforcement agencies, public service agencies, have provided in 
partnering with TSA. And I hope that we have been a good 
partner.
    One of the things that, if I am confirmed and I get the 
opportunity to travel out to the workforce, which I will make 
as the highest priority for me in the first couple of months, 
and then throughout my tenure, is to meet with our State and 
local law enforcement partners and just reinforce the 
appreciation we have for the service they provide and the 
criticality it is to the overall success of our mission.
    Senator Tester. OK. As the budget applies, the Law 
Enforcement Officer (LEO) Reimbursement Program, was zeroed out 
in the President's budget. That money is used to basically help 
local law enforcement support your mission. Do you know if 
there are any other grants out there that could replace the LEO 
grants, or is that the only game in town when it comes to 
supporting local law enforcement?
    Admiral Pekoske. Senator, I do not know if that is the only 
game in town to support State and local law enforcement. But if 
confirmed, I will take a very close look at that and get back 
on your calendar to----
    Senator Tester. But you would agree that it is really 
critically important that those partnerships are there. And I 
can tell you that local government, even State government to a 
certain extent, really does not have the resources to be able 
to add value to your operation.
    Admiral Pekoske. Yes, sir, the partnerships are critically 
important.
    Senator Tester. Since it was brought up during Senator 
Portman's questioning, you said that you wanted to increase job 
satisfaction and reduce attrition. How much do you think that 
the pay for your front-line folks has to do with keeping them 
on the job?
    Admiral Pekoske. Sir, I think it is certainly a factor. To 
say otherwise would, I think, be silly. But I have not spent 
enough time with the TSA workforce. My only time really with 
the TSA workforce has been as a passenger going through a 
screening line. But I have read the survey results, and, I 
pledge, if confirmed, to spend a good amount of time early on 
to really understand what some of the issues are. For me, just 
from what I have read, some of the issues would pertain to 
leadership at all levels of the organization, reinforcement of 
the front-line individuals' performance, recognizing good 
performance when good performance is performed, providing the 
workforce adequate training; and for those that see a career in 
TSA, providing them the counseling and the support to pursue 
that career, but make the expectations realistic.
    Senator Tester. Well, I would just say leadership is 
critically important. It is critically important, and you know 
that coming from your previous job. But I would also hope that, 
as you look at the turnover of your front-line folks, that you 
take a look at where they are moving to and if pay is a 
potential problem.
    Admiral Pekoske. Yes, sir.
    Senator Tester. I mean, if we are in a mode of continually 
retraining folks that are on the front lines, that is not 
healthy for the organization. And I do not think it is healthy 
for security either, by the way. What is your perception on 
that?
    Admiral Pekoske. Sir, I agree, and one of the things that 
concerns me, in addition to the job satisfaction survey 
results, is the attrition rate, which is, in my view, very high 
for the workforce. And I have just a macro number as a nominee. 
What I would like to do, if confirmed, is to look at the 
attrition rates across each individual airport and really get a 
handle on that.
    Senator Tester. I think it is good, and I think the 
reassignment of people, too, that Senator Portman brought up is 
also critically important. We are starting to see that in a lot 
of agencies, if they come out with a decision that maybe the 
higher-ups do not like, the White House in particular, they get 
reassigned. And I think that will do more to ruin employee 
morale than anything. You want people that are able to make 
decisions and support them in that decisionmaking. So thank you 
on that.
    Mr. Glawe, as far as cyber crime and cyber interference is 
concerned, which countries do you see as our biggest 
adversaries?
    Mr. Glawe. Senator, thank you for the question. Clearly, 
the intelligence community assessment on the Russian cyber 
intrusion on the elections I agree with, and that raises 
significant vulnerability points in our critical 
infrastructure. In an unclassified setting, maybe I would take 
it for the record to have a list of--the classified response on 
the countries at risk. But what I would say in this setting is 
that did illuminate a vulnerability from active foreign 
intelligence organizations that are on the homeland. And Russia 
is not the only game in town, is what I would say, and ``we''--
being 
the intelligence and law enforcement and private sector 
community--are going to have to be cognitive of those threats. 
And if confirmed, I look forward to working on that problem.
    Senator Tester. And I appreciate that, and I do not think 
anybody is saying that Russia is the only game in town. But I 
do want to touch base--and this is not to put anybody in 
conflict with anybody. It is just we have to deal with these 
issues because they are real. But the President tweeted out on 
Sunday that he and Russian President Putin had discussed 
forming an impenetrable cybersecurity unit so that election 
hacking and many other negative things will be guarded and 
safe.
    I will give you my opinion. You want to talk about the 
epitome of the fox guarding the henhouse, this is it.
    What do you seek as the head of the DHS office when it 
relates to Russia and cybersecurity? Go ahead.
    Mr. Glawe. Senator, if confirmed, I look forward to 
aggressively working with our intelligence, our law 
enforcement, and our private sector partners to glean the 
intelligence and our vulnerabilities on our critical 
infrastructure, especially in the cyber arena. The electoral 
system is one, but there are others that are vulnerable as 
well, especially with the private sector. My predecessor, Under 
Secretary Frank Taylor, had worked for General Electric (GE), 
and he has vocalized his concerns about the private sector.
    So I look at, if confirmed, to really focus on that and 
what our posture currently is and maybe where we have some 
business process and tactical response processes to improve 
where we are currently postured in the United States.
    Senator Tester. Thank you. You do not have to answer this, 
but one of the questions that I also would like you to answer, 
through written or whatever, is what you are each going to do 
to break down silos between your partners, both within the 
Federal Government, State government, and local government, 
because I think it is really critical. You guys are not allowed 
to make a mistake. You just cannot.
    And so I appreciate you guys. I fully intend to vote for 
your confirmation. I think you are two quality candidates. 
Thank you very much.
    Chairman Johnson. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Thank you, Mr. Chairman. And thank you 
both for allowing us to be able to move on to the questions as 
well.
    I want to pick up where Senator Tester left off here on the 
silo issue. You have been in law enforcement for a long time, 
Mr. Glawe. You know full well that there are clear lines 
between jurisdictions and responsibilities, and there are times 
when eight people all show up and they have eight different 
jobs, and you are all standing around waiting for your turn to 
be on your task. That is especially true when we deal with 
intelligence operations. Most of our intelligence operations 
are foreign-facing, trying to be able to figure out what is 
happening, what is coming at us. You have a very unique 
responsibility by trying to see what our threats are coming at 
us, at our closest areas.
    But there is also overlap. You mentioned in your written 
testimony that you intend to focus on analytical capabilities 
``on areas where we are positioned to add value or that are 
underserved by other parts of the intelligence community rather 
than duplicating work done elsewhere.'' Help us understand that 
portion of that. Where do you think you can add value, first? 
And where do you think there might be duplication that we can 
help with? We want to help with both of those.
    Mr. Glawe. Senator, thank you for the question, and thank 
you for meeting with me regarding the nomination.
    The DHS enterprise is very uniquely poised, I think, in the 
law enforcement and intelligence community space, in the 
marine, the trade, the travel, and the border security 
environment, and also with the private sector and sharing 
information with State and locals. No one else, I would argue, 
has that type of infrastructure to collect intelligence, to 
identify threats from that arena. So that is where I see our--
and in conversations with numerous staff and Committee Members, 
that is a unique posture of DHS where we could enhance value.
    With the duplication of effort, I think there is some room 
for improvement in the terrorism arena. There are a lot of 
organizations that report on international terrorism and the 
effects on the homeland, including the FBI and the DHS 
relationship. If confirmed, I look forward to working with my 
law enforcement and intelligence community partners to 
streamline our business processes, to make sure there is not 
duplication; and where there is, maybe we will, partner and 
move our resources in a little bit other areas where there is 
not as much coverage. So I look forward to looking at the 
enterprise approach to that, if confirmed.
    Senator Lankford. I would say we would be very eager to be 
able to help you with that as well. We have a lot of threats. 
We need to be able to focus our dollars on the areas where we 
need to be able to deal with those threats. If we are 
duplicating dollars, that means we are not looking at something 
else and we are missing out. So while I understand all the 
jurisdictional issues and that is their deal and we cannot talk 
about their deal, we do need some help and some ongoing 
conversation to be able to determine we do have some overlap 
here, and so we can deal with that overlap in the days ahead.
    You also focused in your testimony on transnational 
criminal organizations. Obviously, there are multiple entities 
that are dealing with that part of it as well--State 
Department, the Drug Enforcement Agency (DEA), all kinds of 
different groups, FBI obviously. Where do you see your unique 
section dealing with transnational criminal organizations?
    Mr. Glawe. Senator, thank you for that question. I am very 
passionate about transnational organized crime as well as the 
Secretary has spoken about it. The threats that are on the 
homeland from transnational criminal organizations by its 
nature starts in a foreign space. The overwhelming amount of 
narcotics flowing into the United States from Mexico and 
synthetic narcotics from China are devastating us. The deaths 
are compiling.
    I view the DHS enterprise as the last line of defense at 
the borders repelling these threats that are coming inbound, 
but also to push the borders 1,500 miles out, as Secretary 
Kelly has mentioned. How do we create an intelligence and law 
enforcement enterprise in partnership with foreign countries, 
with the embassies, and identifying those threats and 
empowering our foreign partners, empowering our law enforcement 
partners, empowering intelligence organizations to mitigate 
those threats? Because it is quite apparent that they are 
infiltrating with the narcotics coming into the United States. 
That is one vector of transnational criminal organizations. 
Others are cyber as well, the Dark Web.
    Again, Senator, if confirmed, it would be a great 
opportunity to work with the Committee on those threats, have a 
longer discussion on if we are postured correctly and maybe 
some potential readjustments that could help us wage our 
consolidated war on transnational organized crime together.
    Senator Lankford. I would welcome that conversation. 
Senator Harris and I both serve on the Intelligence Committee 
as well as serving here on Homeland Security, and so this is 
essential for us as we are working through this. So we will see 
each other often, but we also want to be able to make sure we 
have right-facing, right agencies, right entities on it.
    Vice Admiral Pekoske, you have a tough job. You have a lot 
of folks that are scattered all over the Nation. They deal with 
angry travelers every day. They deal with folks that are sick 
of standing in line, and your Hamilton quote I think is an 
excellent one to be able to put out there and say they are all 
free people and they want to be treated with respect.
    I would tell you, as you are traveling, after 
confirmation--I fully expect to be able to affirm both of your 
confirmations in this. But post-confirmation, we would welcome 
you to Oklahoma. There is a great team of folks there that work 
for TSA that treat people with respect, that their head is up, 
that they are actually engaging with people in a friendly way, 
very respectful, and have done it exceptionally professional. 
So we would welcome you to be able to come to Oklahoma and be 
able to meet the folks there.
    I would love to say I see that in every airport. I do not. 
In the airports that I have the opportunity to be able to 
travel in, I will occasionally see folks that are in TSA, just 
the whole organization, head down, not interacting with people, 
everything is running slow, very different attitude. And so as 
you are dealing with that from place to place, you have some 
unique responsibilities. I am sure you have seen some of the 
red team testing as well, people that are working with TSA to 
be able to help evaluate where we have weaknesses. That is 
something that our Committee will track, we will continue to 
track and to be able to help with. Some of that boils down to 
not only training of people but acquisition.
    So my specific question for you is: How do we deal with the 
acquisition issues at TSA? Because we have at times done multi-
billion-dollar acquisitions that 2 years later decided that was 
a bad idea, and you are coming back to the Committee to restart 
again. What can we do to be able to make sure the acquisition 
process works well while you are also working on the people and 
the morale issue?
    Admiral Pekoske. Yes, sir. Well, thank you for your 
comments on the TSA workforce and for your invitation to travel 
to Oklahoma. I would really appreciate doing that and will 
place that as a priority if confirmed.
    With respect to acquisition, that is one of my highest 
priorities, and I think it is also Deputy Secretary Duke's 
highest priority, and hopefully soon-to-be Under Secretary for 
Management Claire Grady's highest priority. The three of us 
have worked together before, and from my perspective, I would 
really like to see greater technology insertion in what we do 
in TSA and getting that technology insertion to the workforce 
faster. And I think that, too, for the workforce will help them 
do their jobs from a morale perspective, being able to use 
something that really is much more useful than perhaps what 
they are using today, and seeing the agency be responsive to 
what they, I am sure, have articulated as a need and putting it 
out in the field and getting it in place.
    TSA has an Innovation Task Force, which I have been briefed 
on. I have a lot of experience in innovation. I led the 
innovation effort for the Coast Guard when I was the Vice 
Commandant, and so that will be a key priority of mine to do 
just what you suggested.
    Senator Lankford. Yes, speed is exceptionally important. 
When we have determined what a threat is, we cannot wait 4 
years before we actually distribute that out to the locations.
    Admiral Pekoske. Yes, sir.
    Senator Lankford. Thank you.
    Admiral Pekoske. Thank you.
    Chairman Johnson. Senator Harris.

              OPENING STATEMENT OF SENATOR HARRIS

    Senator Harris. Thank you.
    Mr. Glawe, it is good to see you again. I am sorry I do not 
see your beautiful children here today. They were a star of the 
show in addition to you when you came before Senator Lankford 
and myself in our Intelligence Committee.
    I appreciate your responses to my questions for the record 
for you, and, Mr. Chairman, I would appreciate if we can submit 
those answers to the written QFRs in our record.\1\ But I 
appreciate you asserting, Mr. Glawe, that it ``is never 
appropriate to produce intelligence with the specific intent of 
supporting a preconceived policy position.'' I also appreciate 
your assurance when you wrote that you would resist any 
attempts by the White House or anyone else to politicize DHS's 
intelligence analysis.
---------------------------------------------------------------------------
    \1\ Mr. Glawe's responses to post-hearing questions from the Senate 
Select Committee on Intelligence (SSCI) appear in the Appendix on page 
52.
---------------------------------------------------------------------------
    On a different point, recently the Supreme Court partially 
lifted the stay on the implementation of the Muslim ban. 
However, the Court said that individuals with a bona fide 
connection to the United States could not be subject to the ban 
and must be allowed to enter the United States. In implementing 
this, DHS issued guidance defining which family relationships 
qualify as ``close family'' relationships and excluded 
grandparents, aunts, and uncles from that definition of ``close 
family.''
    So my question for you is: Is there a rationale for 
excluding grandparents, aunts, and uncles from the definition 
of close family relationship?
    Mr. Glawe. Senator, thank you for the kind words, and thank 
you for the questions. I am not aware of the rationale that 
went behind that, so I would have to take that back for the 
record on that. I am not aware of the criteria that was used 
for that policy decision.
    Senator Harris. Thank you. I appreciate you looking at it, 
and I would like you to also just consider that even in our 
country, the definition of what a family is has changed as we 
move around. Aunts and uncles in many cultures, including our 
own, and grandparents are really considered almost equal to 
parent. In many cultures, in fact, depending on birth order of 
siblings of your parent, you would refer to that aunt as your 
``older mother'' or that uncle as ``younger father.'' So thank 
you. I appreciate that.
    Mr. Pekoske, in March 2014, TSA released a report in the 
aftermath of a shooting at Los Angeles International Airport 
(LAX) where, as you probably know, one TSA officer was killed 
and three others were wounded. In fact, I went there right 
after, and it was a tragedy, as you can imagine, for all of us. 
The report was issued that recommended actions to enhance the 
presence of law enforcement and local law enforcement at 
checkpoints, including having TSA officers. And I appreciate 
Senator Tester bringing up the role of local law enforcement.
    So in regards to that March 2014 report, in contrast, the 
President's current budget proposes eliminating the Law 
Enforcement Officer Reimbursement Grant Program, which helps 
local law enforcement keep airports safe. What is your 
perspective on that recommendation as it relates to the budget?
    Admiral Pekoske. Senator, I was not involved in the build 
of the fiscal year (FY) 2018 budget. If confirmed, I will get 
into the details right away to understand the rationale for 
certain things that are in the budget as additions and some 
that are subtractions.
    I would reiterate that I think the partnership with State 
and local law enforcement is absolutely critical to TSA's 
mission, and the incident in Los Angeles in March 2014 really 
illustrated the risks that TSA officers and State and local 
officers face nearly every day. So that will be a very high 
priority for me, and I will take a close look at that.
    Senator Harris. I appreciate that, and I would emphasize a 
point that I think you know, which is that tragedy highlighted 
also the courage that TSA officers display every day in the 
work that they do and their readiness to actually stand in the 
face of fire and protect civilians.
    Another recommendation made in that 2014 report following 
the LAX shooting was to ``extend the redeployment of additional 
Visible Intermodal Prevention and Response (VIPR) teams,'' that 
had been temporarily redeployed in the aftermath of that tragic 
incident. However, again, in the budget there is a 
recommendation that the number of VIPR teams nationally be 
reduced from 31 to 8. Are you familiar with that 
recommendation?
    Admiral Pekoske. Yes, I am.
    Senator Harris. Can you tell me whether you support that? 
And if so, why?
    Admiral Pekoske. Senator, what I can tell you is that I 
have worked with VIPR teams in my past. I have found them to be 
very effective as a deterrent, and I am a strong supporter of 
the VIPR team effort.
    Senator Harris. So will you commit to this Committee that, 
if confirmed, you will work to actually improve that 
recommendation and not reduce that number from 31 to 8?
    Admiral Pekoske. Senator, what I will commit is that I will 
look carefully at the rationale for that number and the 
deployment of VIPR teams, and I will further commit that, I do 
not want the folks that operate on the VIPR teams to feel like 
they are underappreciated at all, because the work they perform 
is critical to our security, and I will reinforce that with 
them.
    Senator Harris. I appreciate that.
    And I would like to now talk about TSA wait times, which 
is, I think, something we all appreciate that folks--it is 
frustrating for folks who are trying to travel for a variety of 
reasons, for business, for family relationships. DHS recently 
announced new screening rules, which require additional 
screening for safety reasons. And there is no doubt that the 
security of all travelers is the highest priority, but we can 
also expect that these new rules will add to wait times or not?
    Admiral Pekoske. Senator, I would think that they might 
slightly add to wait times, but wait time is, from what I 
understand, something that is very carefully watched by TSA 
across the entire enterprise. And TSA, in my view, did a superb 
job last summer in responding to the wait time issues across 
the country by redeploying assets from one airport to the other 
based on expected passenger throughput.
    The other thing that I would mention to you is I think it 
is very important to encourage more travelers to go into the 
trusted traveler programs because that should reduce their wait 
times. That also increases, in my opinion, security 
effectiveness and very much so efficiency. So one of my 
priorities as well, if confirmed, would be to see what we can 
do to encourage more participation in trusted traveler programs 
like Global Entry, like TSA Pre-Check.
    Senator Harris. That would be great. I have in my State two 
of the largest airports in the country, as you probably know, 
San Francisco International Airport (SFO) and LAX, and it 
continues to be a concern for travelers through those airports. 
I hope Senator Lankford was not thinking of one of them when he 
was recalling frustrations he has had at airports around the 
country. But I appreciate that, and you earlier in your 
testimony made a commitment to innovation and clearly have some 
innovative ideas. Thank you. I have nothing else.
    Admiral Pekoske. Thank you, Senator.
    Chairman Johnson. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Well, thank you, Mr. Chairman and Ranking 
Member. And good morning to you both. Thank you for being here.
    I wanted to start with a question for you, Mr. Glawe. DHS 
was created in part to ensure that all homeland security-
related functions of the government were housed under one roof, 
and in doing so, Congress and the Bush Administration 
endeavored to create the conditions by which homeland security-
related information and intelligence was more effectively 
shared between each of the agencies.
    The DHS Office of Intelligence and Analysis was empowered 
to help facilitate this intelligence sharing between DHS 
components. However, the Under Secretaries that have come 
before you have encountered resistance from DHS components in 
achieving full information and intelligence sharing within the 
broader DHS.
    As the former head of CBP's Intelligence Office, you had a 
front-row seat to this dynamic between components and the DHS 
Office of Intelligence and Analysis. So what steps will you 
take to ensure that DHS components are fully sharing 
intelligence with the DHS Office of Intelligence and Analysis?
    Mr. Glawe. Senator, thank you for the question, and thank 
you for meeting with me prior to my testimony today.
    I am uniquely postured to answer that question because I 
did lead the largest component in DHS intelligence enterprise. 
And a couple things that my predecessor, if confirmed, Under 
Secretary Taylor developed a mission manager approach, an 
integration approach of bringing in the operational components, 
the intelligence apparatus, under a collaboration-type 
environment, a business enterprise.
    I anticipate to facilitate and move forward with that model 
even further. There is a tremendous opportunity within the 
components, intelligence functions, their data collection, 
their human source networks, their law enforcement collection 
on the aircraft they fly or the marine environment they collect 
on, and partnership with the intelligence community partners of 
the Admiral's prior organization, the Coast Guard. It is going 
to be a business model of integration. When I was with Customs 
and Border Protection, I did stand that up within a 60,000-plus 
organization under a field intelligence group (FIG) model, 
which was similar to what I learned under the FBI and the 
Director of National Intelligence Jim Clapper. It is going to 
be a similar type model, so I am not creating something new. I 
am tweaking what has already been out there that works for 
other organizations. But it is going to be a big machine and a 
heavy lift, and I look forward to partnering with the 
Committee, if confirmed, on helping do that as a partnership.
    Senator Hassan. Well, thank you very much, and I enjoyed 
the meeting with you in my office as well.
    Vice Admiral, I wanted to touch with you a little bit on an 
issue that I know others have asked questions about already 
today, which was about the morale in both of the agencies that 
you are nominated to lead. But I wanted to follow up with you, 
Vice Admiral, because one of the questions that the TSA morale 
issue really begs is the way they are treated compared to other 
Federal employees, right? So would you consider making TSA 
employees full-fledged Federal employees who enjoy all of the 
same benefits as all other civil servants do?
    Admiral Pekoske. Senator, thank you for the question, and 
it is good to see you again. I would really like to get a feel 
myself for the issues that the workforce faces, and as I said 
in the opening statement and I said to you in our office 
meeting several weeks ago, I intend to spend, if confirmed, a 
great deal of my time out in the field understanding this 
issue, because I think it is critically important to be able to 
address. And then I am open to looking at any option that would 
address it.
    I think fundamentally the issue can be largely addressed 
through leadership at all levels of the organization, and 
Senator Lankford mentioned that some airports have different 
levels of performance than others. Well, that is something that 
we measure and we can look at and try to drill down and figure 
out, OK, why is that? Is it a facility issue that might be 
hindering the job satisfaction of the employees? Is it 
constraints on the facility technology? Or is it something 
else? And that is something that I really want to pay an awful 
lot of attention to and get to the root of because being at the 
very bottom of employee satisfaction is not where I want to be. 
And, really, from my Coast Guard experience, we are used to 
being at the other end.
    Senator Hassan. Well, and I thank you for that answer. What 
I would ask you to talk to TSA employees about, as I have, is 
the fact that they are uniquely positioned as non-civil 
servants, and it results in high turnover. It results in a lot 
of other issues that I think are fundamental to some of the 
morale issues. So if you just would commit to talking with them 
about that and considering it, it would be very helpful.
    Admiral Pekoske. Yes, Senator, I would definitely talk with 
them about that. I want to understand that issue much better 
than I do today.
    Senator Hassan. Thank you.
    And one last question again for you, Mr. Glawe. As the 
office in charge of analyzing the threat to homeland from ISIS 
and al-Qaeda-inspired terrorism, the DHS Office of Intelligence 
and Analysis plays an important role in helping to understand 
the recruitment propaganda that is intended to leverage 
homegrown terrorist attacks within the United States. Given 
your experience as a local law enforcement officer, as an FBI 
counterterrorism agent, and as an intelligence official, what 
is the best way for the U.S. Government to go about preventing 
the recruitment of our young people by these groups?
    Mr. Glawe. Senator, thank you for the question, and I have 
thought about that threat for years, in discussion with 
partnerships in the intelligence community and law enforcement. 
At the very tip of the answer would be an integrated approach 
with law enforcement, the private sector, the communities at 
the lowest common denominator--I was a community police officer 
when I first started in Houston almost 25 years ago--is 
integration with the community, conversations with the 
communities that are at risk, and developing those 
partnerships.
    It is not going to be solved by the intelligence community, 
it is not going to be solved by law enforcement, it is not 
going to be solved by the private sector, the communities 
alone. It is going to be a partnership. And what I have seen 
the successes at identifying violent acts or violent activity 
in communities is a community-based approach. Now, we have a 
challenge with the online caliphate, and that is a whole 
different set of challenges as well. How do we create an 
infrastructure in protecting civil liberties but also 
identifying those risks as well? But it is a consolidated 
approach, and the communities to me, in partnership with local 
law enforcement and local leadership, is the key point. And we 
have seen success in the Somali communities in the United 
States back close to 2010. So, if confirmed, I look forward to 
working on that very tough problem.
    Senator Hassan. Well, I thank you for that. And I just 
wanted to follow up very quickly. A few weeks ago, this 
Committee heard testimony from the former Director of the 
National Counterterrorism Center (NCTC), Mike Leiter, who spoke 
about the need for the U.S. Government to embrace what I think 
you are describing an engagement strategy with communities 
across the country in order to prevent the possibility of 
homegrown terrorist attacks.
    I know I am out of time, but I would like you to think 
about maybe we could follow up what offices should be the tip 
of the spear for that particular effort. Thank you.
    Chairman Johnson. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Gentlemen, welcome very much. Thanks for 
your years of service, and your willingness to serve us some 
more.
    Mr. Glawe, it was nice to see you. Have you had the 
opportunity to talk with General Taylor and sort of looking 
back at some of the initiatives that he launched, successful to 
completion and others that are maybe not completed, not fully 
implemented? What are some things that he started on his watch 
that you think ought to be continued and improved upon?
    Mr. Glawe. Senator, thank you for the question. I have met 
with all the prior Under Secretaries--Charlie Allen, Caryn 
Wagner, and Frank Taylor.
    So Under Secretary Taylor, or General Taylor, had a couple 
of tremendous programs that I hope, if confirmed, to continue 
with. He had an integrated intelligence surveillance and 
reconnaissance program where he was looking at the enterprise 
of DHS, the U.S. Customs and Border Protection, U.S. Coast 
Guard assets, specifically on the air and marine environment 
and how we can align our resources so we are not duplicating 
efforts, we are flying sorties or our float times are 
appropriate, and then also looking at our data acquisition, how 
law enforcement data is acquired, how it is integrated among 
the DHS enterprise, and then also shared with our law 
enforcement, intelligence community, and private sector 
partners. General Taylor did an outstanding job of pushing 
that, and I hope to, if confirmed, continue on that.
    And then also the mission manager approach, where he had 
assigned functional mission managers to threat environments, 
the trade and travel space, also technology improvements as far 
as looking at the mission managers involving that. Again, 
General Taylor I think was absolutely heading in the right 
path, and I look forward, if confirmed, to continue down those 
paths of things he started.
    Senator Carper. Good. Thank you.
    Admiral, nice to see you. I was delighted to get to know 
Admiral Neffenger during his time as Administrator at TSA. I 
was disappointed that he did not continue in this 
Administration in a leadership role, and my hope is that 
someday he will have the opportunity to serve in a senior role.
    I suspect that you know him pretty well----
    Admiral Pekoske. Yes, sir.
    Senator Carper [continuing]. And that your time in the 
Coast Guard sort of overlapped. You have probably known him for 
a long time. And I was very impressed with the leadership--you 
mentioned the word ``leadership.'' I was very impressed with 
the leadership that he provided at TSA. I always used to say 
that leadership is the most important ingredient in the success 
of any organization I have ever seen or been a part of, and 
that certainly includes TSA.
    I am one of those people, when I go through airport 
security, I thank the folks at TSA for the work that they do, 
and I would encourage others who might be watching this today 
to do the same thing. They have a very difficult job, and they 
need our thanks, especially when they do it well.
    I would like for you to answer much as I asked David to 
answer questions, looking at what Admiral Neffenger was doing, 
attempting to do as the TSA Administrator over the last year or 
two, that you think was especially promising, that are bearing 
fruit. We talked a fair amount here today already about morale. 
A lot has been done in that regard, and I do not know that you 
need to reinvent the wheel. But what are some things that you 
would want to carry on, some things you want to improve upon, 
and maybe some other things you would like to do?
    Admiral Pekoske. Yes, sir. Thank you. I know Peter 
Neffenger very well. We served for many years together in the 
Coast Guard. We had many of the same positions in the Coast 
Guard, and I have great respect for his leadership and his 
management ability. He and I have talked extensively since I 
was nominated by the President to succeed him, if I am 
confirmed, and he shared with me his blueprint for TSA. I 
reviewed that, and I can assure you that I think he set exactly 
the right foundation for TSA and view my job as to really build 
on a lot of the things that he had done.
    He placed a lot of emphasis on the workforce, including 
establishing a TSA Academy so that as new employees came into 
the workforce, that they had a week or two period of time at 
Glynco, Georgia, where they could be assimilated into the 
organization and feel part of it.
    Senator Carper. I have been there and seen the good work 
that is being done. Thank you.
    Admiral Pekoske. Yes, sir. I think that has been very 
successful.
    In addition to that, he instituted training for the 
workforce once they got back to their home airports. He started 
an Innovation Task Force, which I will absolutely continue, and 
I will expand that task force because I think that is off on 
the right track.
    He made some organizational changes to TSA which are very 
important to reduce spans of control and increase 
accountability, and also centralized the oversight of 
operations in the agency, which had not been done before. And 
that allowed TSA to move its resources around to be able to 
respond to predicted wait time surges at airports around the 
country.
    So all of those were very foundational and things that I 
look to continue going forward, and rest assured that Peter and 
I will have an ongoing dialogue over the course of time. We are 
very good friends, and I have great respect for him.
    Senator Carper. A couple weeks ago, my wife and I flew in 
and out of O'Hare. We will be back out there later this summer. 
I recall a bit more than a year ago the place was bedlam.
    Admiral Pekoske. Yes.
    Senator Carper. And one of the things that Admiral 
Neffenger did was to determine what caused that. Should they 
have seen this tidal wave of passengers coming?
    Admiral Pekoske. Right.
    Senator Carper. And the answer was yes, and what to do 
about it. He changed out the leadership. And he did not just 
change it out over a period of a couple months. He like changed 
it right away. And I was very impressed at the time about how 
important leadership is, and he provided great leadership and 
also made sure that the folks at O'Hare--he put in the right 
leadership team there, and he did it just like pretty much like 
that.
    I want to ask you to talk to us a little bit about the 
partnership between the Federal Government and the airlines 
with respect to the work that TSA does, and it is very much a 
hand-in-glove operation. Particularly, talk about technology 
and how we are maybe changing the experience that we have when 
we go through security check-ins at airports using technology 
to be able to get more throughput in a more secure way.
    Admiral Pekoske. Yes, sir. A partnership with the airlines 
is absolutely critical, and if confirmed and I get out into the 
field, as I intend to do, I will make it a priority to visit 
the airline headquarters around the country and will choose 
those airports initially so I get that opportunity. I think 
those partnerships are critical to their success and to TSA's 
success and to the passenger experience and passenger safety 
and security.
    The airlines have helped a lot with technology insertion in 
airports around the country. There are screening lines now 
where you can put down your checked bag and you do not have to 
wait for the person queued up in front of you. Several people 
can put it down at the same time. That fixes a known process 
problem in the security checkpoints.
    Additionally, the airlines have been very supportive of 
putting better technology into checked baggage so that the 
Transportation Security Officer (TSO) who is trying to look at 
that screen and make sense of everything that we put into our 
checked baggage can do it with a little bit more confidence and 
a little bit quicker.
    And so those are things that I would very much look forward 
to continuing, and many of those were things that Peter had 
started with his relationship with the airlines. So I look 
forward to a very robust relationship with them and a very 
strong partnership.
    Senator Carper. Good for you. Thanks very much to both of 
you.
    Chairman Johnson. Senator Paul.

               OPENING STATEMENT OF SENATOR PAUL

    Senator Paul. Congratulations to both of you for your 
nominations.
    Admiral Pekoske, with regard to security in general and 
sort of the philosophy of security at our airports, for about a 
decade after 9/11, the Bush Administration opposed the frequent 
traveler program, and they said, oh, everybody is going to be 
treated the same no matter what, it is universal risk. And I 
always thought that was a mistake because I think you need to 
spend more time where there is more risk and less time where 
there is less risk. You cannot possibly, give the same level of 
scrutiny to all the passengers. So I think we are doing better, 
and I like your approach that you are talking about, being in 
favor of the frequent flyer program as a way to spend more time 
on those who you know less about and perhaps have more risk.
    As you and I discussed, I think there is also a question of 
how much resources we spend on the random screening at the 
airport and how much we spend on looking at the risk of people 
before they get to the airport. And what is your opinion on 
whether we are spending enough before they get to the airport 
versus when they get to the airport, and the mix of that, and 
whether we need to make any changes?
    Admiral Pekoske. Senator, thanks for the question, and 
thanks for your time yesterday. I think that mix, from what I 
understand, is the passenger--now, I have not been briefed by 
TSA in detail on the classified portions of those reviews, but 
that is something I would pay a lot of attention to very early 
on, if confirmed.
    As we discussed and as I said earlier today, putting more 
people into the trusted traveler programs is really important. 
I think it improves the passenger experience, and it makes the 
screening a lot more effective. And like you just said, sir, it 
allows the resources that we have that are limited--and airline 
travel is increasing at about 4 percent per year, so we need to 
be mindful of that. So to the extent that we can become more 
efficient but not suffer any loss of effectiveness in security 
as well.
    Senator Paul. Are you aware of the program that we have for 
veterans that are amputees, what are screening procedures for 
them?
    Admiral Pekoske. Not in detail, sir.
    Senator Paul. OK. I am a little bit aware of it, and I 
think they will make special accommodations for them. But I 
think it may require calling in advance, which is not always 
happening. Unfortunately, we have a lot of veterans that are 
amputees.
    One of the things I would like you to look at, if you 
would, is to specifically look at this program, and I would 
think there would be a pretty simple way that, it is pretty 
obvious if you are an amputee, and that if you could present a 
military ID, you do not have to take your prosthesis off. I 
have a friend who is a triple amputee, and just having him take 
all of his prostheses off, it is a labor for him and makes him 
less likely to want to fly, basically.
    Admiral Pekoske. Sir, I agree, and I just think it is not 
right, so I will take a look at it.
    Senator Paul. Mr. Glawe, one of the things that has really 
bothered a lot of us who care about privacy is the fact that 
now citizens are being detained at the border and denied entry 
back into their country unless they present a password to their 
phone. I understand the need for information, but I also am a 
believer that you accuse somebody of something, you get a 
warrant from a judge, and there is a process. Do you think our 
current policy is consistent with what citizens should expect 
of the Due Process Clause of the Constitution, demanding their 
password, denying them entry to their country?
    Mr. Glawe. Senator, thank you for the question, and the 
policy decision on the border search has not fallen under any 
of my positions in my prior capacity.
    With that being said, in my 24 or 25 years in law 
enforcement, the Constitution is the bedrock of everything I 
have done in my career, the First Amendment and Fourth 
Amendment specifically, and people being secure in their 
privacy is the utmost. And I will continue that in my career 
here if confirmed as the intelligence head for DHS and would 
adhere to any policies and procedures or precedent-setting 
cases in regard to that matter.
    Senator Paul. Just be aware that there is at least a 
significant portion of our country that is concerned about it. 
We have a bipartisan bill to say you get a warrant. I am not 
against you going after threats. I am not against you asking to 
look at a phone. But you have to ask a judge first. And I think 
the thing is that people are alarmed at the fact--people are 
already talking about you cannot take your phone abroad because 
you may not be allowed back in your country without searching 
your phone. And your phone, what is on your phone--and there 
are more extensive documents on your phone than anyone ever had 
in the papers in their house at the time of the Revolution. So, 
I mean, I think we cannot willy nilly just say you cannot come 
back in your country, without looking at everything on your 
phone.
    They are also not telling you what they do with the phone, 
whether they are downloading all your contacts, all of your 
search history, all of your Internet browsing. So some of us 
are very concerned with this. I brought it up with General 
Kelly. I do not think he shares significant concern for that 
and said the policy will continue. But I can just let you know 
that there is a significant amount of the public that is not 
happy about the idea that you could come back, and I think 
there is the danger that you come back in, if you are not lily 
white and look like some sort of standard version of what you 
think is American, that you are going to have your phone 
searched. And that is kind of what it is looking like now. But 
if you have a risk associated with it and you want to ask a 
judge, by all means. But I do not think we should be stopping 
people from coming back into the country and demanding to look 
at everything on their phone.
    Thanks.
    Chairman Johnson. Thank you, Senator Paul. Senator 
McCaskill.
    Senator McCaskill. Thank you.
    I want to thank you, Mr. Pekoske, because you indicated in 
your policy questionnaire that you would respond to any 
reasonable requests from Members of Congress, regardless of 
party.
    Mr. Glawe, you did not receive the Committee questionnaire, 
so you have not had an opportunity to answer that question. 
Would you also agree to commit to respond to any reasonable 
requests from any Member of Congress, whether in the majority 
or the minority?
    Mr. Glawe. Absolutely, Senator.
    Senator McCaskill. Thank you. I want to talk a little bit 
about whistleblowers and retaliation, Mr. Pekoske, and I think 
that is part of the problem that you are going to have to 
confront. And let me go at it this way. There was information 
sent to employees in the TSA's Office of Security Capabilities. 
They were told recently that any and all documents related to 
an Office of Inspector General (OIG) or the Government 
Accountability Office (GAO) request must be cleared by TSA 
leadership before they can be sent to investigators.
    Now, I want to give credit to the Acting Administrator 
because the Acting Administrator, once he realized this had 
gone out, immediately corrected that and sent out guidance that 
concurred with the Inspector General's (IG's) recommendation 
that, they should not, in fact, do that, and it was an all-
hands email to employees.
    So someone at TSA thought it was appropriate to tell 
employees that any information given to the IG or GAO had to be 
cleared. Then once the acting person realized this, they 
corrected it. But I want to get to that person who issued that 
guidance in the first place. And the reason that I want to 
challenge you to find out who that was and to take action is 
because of the issue I have discovered on whistleblower 
retaliation.
    Last year, I asked the former Administrator how many senior 
executives at TSA had been found guilty of retaliation against 
whistleblowers by Inspectors General, the Office of Special 
Counsel (OSC), or Federal court. He responded, and I quote, 
``In the past 5 years, neither OSC or any Federal court has 
made a finding of whistleblower retaliation with respect to any 
seniors executives at TSA.''
    Well, I was really surprised by that answer because I knew 
that OSC had obtained corrective action for 7 TSA employees who 
claimed retaliation in 2015 alone, and that there had been 20 
TSA whistleblower claims in the last 5 years. So it did not 
match up, what I was being told by the Administrator and what 
we knew to be the reality in terms of whistleblower 
retaliation.
    And what we believe happened is that these cases got 
settled, and the managers who retaliated against their 
subordinates received no discipline. There was no action taken 
against them. There was no record that they had been 
disciplined for whistleblower retaliation, even though these 
cases had been settled under that rubric.
    So I think that is part of the problem here, because what I 
think everybody that works there knows, they can retaliate 
against you for whistleblowing and nothing is going to happen 
to them.
    So I would like you to commit today to looking at this 
issue, and I think the fact that somebody at TSA sent out that 
email that you cannot give anything to the IG or GAO without 
telling the boss is Exhibit A that that culture is one of the 
reasons that the people who work there have no confidence in 
the leadership.
    Admiral Pekoske. Yes, Senator, thank you, and I will make 
that commitment to you. The whistleblower issue is one that 
concerns me greatly. In TSA, it seems to me--and I have not 
been briefed on this in detail by the agency as the nominee, 
but it just seems to me that the whistleblower complaints are 
out of range, and it requires a senior-level look at the entire 
issue.
    Retaliating against whistleblowers is against the law. It 
just cannot be done. And anybody that does that need needs to 
be held accountable for doing so. That creates an absolutely 
toxic environment in the workforce, and that is one of the 
things that I really think is a key role of the Administrator 
coming in, is to try to fix that and try to get at it. So I 
will definitely do as you suggest.
    Senator McCaskill. Yes, especially when no one is publicly 
disciplined, because that sends a really--I know based on your 
background, if our military or the Coast Guard operated that 
way, you talk about morale issues. There is a sense that if you 
screw up, something is going to happen. And it does not appear 
to me that at TSA that has been the case, and I really hope 
that you 
will--and we will follow up with you after you are confirmed to 
work on this specific issue because I think it is really 
important.
    Admiral Pekoske. OK, Senator. And what I will further 
commit to you is one of the first meetings I have will be with 
OSC and with the IG to understand from their perspective what 
the issues are. And I want to have a very good relationship 
with them. They perform a very valuable function for the 
agency, and, I appreciate a third-party look at things that 
have been going on.
    Senator McCaskill. Well, the people who respond--as a 
former auditor, I would tell you the people who respond to an 
audit, a look-see, with ``Thank you, this is good, we can do 
better,'' end up in a much better place than those who circle 
the wagons and tell their employees not to tell anybody 
anything that is negative. It just does not work out.
    I was going to ask you about the VIPR programs. You have 
already addressed that. I do want to briefly, Mr. Glawe, ask 
you--you did mention the Russian interference. Based on what 
you know, do you have confidence that the Russians are going to 
continue to try to interfere in our elections next year and in 
2020?
    Mr. Glawe. Senator, thank you for the question, and the 
Russian intelligence services are an aggressive intelligence 
service, and not going into a classified response, I would 
anticipate, being an intelligence official for years looking at 
the State-sponsored or foreign intelligence services, that they 
are going to be an active and an aggressive intelligence 
service for some time. And we need to be postured as an 
intelligence enterprise to address not just Russia but other--
as Senator Tester brought up and I answered a question, his 
question, there are many foreign intelligence organizations 
that are a risk to the United States, and we need to be 
postured to address all of those and identify them before they 
become a substantial issue.
    Senator McCaskill. I guess based on your experience in the 
intelligence community, would you be comfortable partnering 
with Russia and giving them access to any of our intelligence 
capabilities in any kind of task force? Would you consider them 
a viable partner in terms of letting them into our systems to 
somehow work together in a task force against cybersecurity? 
Would you consider that a valuable idea?
    Mr. Glawe. Senator, thank you for the question. My 
understanding is that was recently discussed at a senior 
executive level. What I would say about partnerships with 
intelligence organizations, foreign intelligence organizations, 
would have to have significant oversight and checks and 
balances to whatever agreements and partnerships we would have. 
Maybe we have common goals as to terrorist organizations, 
things of that nature, but it would have to be a strict and 
regimented type of infrastructure built around any partnership 
with an intelligence organization.
    Senator McCaskill. It was a real head-scratcher for me. We 
just voted 98-2 to put more sanctions on Russia, and then 
somehow it might be a good idea for us to partner up? It was 
very confusing to me.
    And, finally, let me just say this, and thank you, Mr. 
Chairman, for your indulgence. I want to tell you, Mr. Pekoske, 
that as somebody who travels a lot--I call Southwest my 
``school bus'' coming back and forth to Washington every week--
I am in airports a lot, and I have to tell you that I have seen 
a dramatic improvement in the TSA personnel and their 
professionalism and the processes. And I think they have a 
really difficult job, and it is always going to be easy to call 
out a bad situation, and there are bad situations that are 
going to happen every day. We have a lot of people flying, and 
people get frustrated and angry, and nobody likes to wait in a 
line. And I just think overall if I compare and contrast what I 
was going through 6 or 7 years ago versus now, there have been 
dramatic improvements. And I do not think we pause often enough 
to thank the men and women of TSA for the very difficult job 
they are doing under very difficult circumstances, and I just 
wanted to end my time at your confirmation hearing that you 
could carry that with you, that there are people who really 
appreciate the good work they are doing.
    I do think the Pre-Check lines are getting too long because 
more and more people are pre-checked now, and I now have to--
like at Ronald Reagan Washington National Airport (DCA), I have 
to check because usually it is a lot quicker to go in the 
regular line than the Pre-Check line. So I think that is 
something you are going to have to deal with. But all in all, I 
think there are very few bad experiences and a whole lot of 
professionalism going on right now.
    Admiral Pekoske. Senator, thank you very much for that 
comment. I will definitely pass it along. It mirrors my 
experience as well. And I think one of the very important 
things with respect to the workforce, like you said, there are 
good things that happen every day. We do not hear about them, 
and we need to. And the leadership at those airports needs to 
highlight the good performance of people when they perform 
exceptionally well. So thank you very much for the comments.
    Senator McCaskill. You bet.
    Chairman Johnson. Thank you, Senator McCaskill.
    Let me just pick up on that a little bit. My own background 
is in manufacturing, continuous operation, millions of pounds 
of plastic going by operators 24/7. It can be really 
monotonous, and yet it was packaging material for medical 
devices. We could not have any defects in that. And you have a 
very similar process now 
with TSA. It can be pretty monotonous, and I think a big 
difference--and this is where I do appreciate the continuous 
improvement of Admiral Neffenger. I am also very impressed with 
the reaction last summer, that kind of flexible deployment.
    Within the military--and I never served in the military--
the esprit de corps, the understanding of the finest among us 
of how critical their mission is, even though they may be 
deployed in some pretty monotonous tasks as well, they 
understand what they are doing. I think that is something 
Admiral Neffenger and yourself can continue to bring to this 
organization, that esprit de corps, that culture, describing to 
the members of the TSA, no matter what their position, they can 
save lives. The mission is just so critical.
    And so I have not been down to the TSA Academy. I would 
love to accompany you down there. I think that is a good 
starting point. But we have just got to be looking at that 
continuous improvement to instill in every member of the TSA, 
if we could shift them more and more to an overall culture that 
we already have instilled in the finest among us, in the 
military, I think that would be a really good step in the right 
direction.
    You talked about innovation. I would just like you to talk 
a little bit about how do you actually implement innovation. I 
will make a suggestion from the standpoint of pilot programs. 
There are differences between airports. Part of it might just 
be differences in the labor pool. Obviously, leadership makes a 
big difference. But I think metrics, measuring, incentivizing, 
empowering management, and then highlighting the best 
practices, can you just kind of speak to those concepts?
    Admiral Pekoske. Yes, sir. First, thanks for your comments 
on the workforce. I greatly appreciate them. And I think it is 
very similar to the Natonal Aeronautics and Space 
Administration (NASA) example. Every person that worked at NASA 
put a man on the moon. Every TSA employee contributes to the 
safety and security of the American public. And we are not 
talking small numbers here. We are talking almost 800 million 
people per year travel by air, and that is not even mentioning 
the surface transportation security work that TSA does in 
partnership with the owners and operators of those systems.
    With respect to innovation, I look at innovation in sort of 
two ways. The first way is technological innovation and being 
able to insert technology rapidly, and so I 100 percent agree 
with you that prototyping is very important to be able to do 
that. The key, though, is to make sure that when you have a 
successful prototype, you actually get it implemented.
    One of the things that I have seen with innovation programs 
is they start out very strong, but if the workforce does not 
see what they contribute to actually finding its way into the 
field, then the innovation program tends to wane a little bit. 
And so cycle time and being able to take a little bit of risk 
with respect to acquisition process I think is very important 
to be able to get that in place.
    Chairman Johnson. But, again, that is technological 
innovation. I am really talking about workforce innovation.
    Admiral Pekoske. Yes.
    Chairman Johnson. I am talking about how you schedule the 
shifts, how you relieve people; how long are they are on the 
screens. How do you move people around? How are you flexible 
with your workforce? So I think from my standpoint that is even 
more critical.
    Admiral Pekoske. Yes, sir. And that would be the second 
tranche, is process innovation. When you are an individual who 
works a process day in and day out, 5 to 7 days a week, you 
know where it can be improved. And I think what TSA needs to do 
and what I will do if confirmed is to put a process in place 
where the workforce can put those recommendations up online. In 
the Coast Guard, we had a virtual innovation forum where, if 
you had a good idea--and these mostly came from our more junior 
members, who, like I said, were doing the job day in and day 
out--you post it on website. You put your name to it. And then 
others could make comments on it. And so we really crowdsourced 
those ideas. And then we took the best of them, the ones that 
got a lot of very positive votes, if you will, and implemented 
them and did that rapidly.
    Again, I think the cycle time is very important, from the 
time that somebody comes up with a good idea and sees it 
implemented. It cannot be 2 or 3 years. It has to be relatively 
quick. But I agree with you 100 percent, sir.
    Chairman Johnson. As Senator McCaskill was pointing out, 
though, too, you compare the military--it may not be zero 
tolerance, but people are held accountable in the military.
    Admiral Pekoske. Right.
    Chairman Johnson. And I think that is so important. I think 
it is one of the reasons you have the result in the military 
as--in the civilian Federal workforce, there is not that level 
of accountability. It is shocking, the level of retaliation, 
even though there have been laws on the books for 100 years. 
And we have the Office of Special Counsel, we have the 
Inspector General. And yet retaliation occurs unbelievably 
often.
    Admiral Pekoske. Right.
    Chairman Johnson. So I think that has to be a top priority. 
I agree with Senator McCaskill. We have to root it out. There 
can be no tolerance for it whatsoever. That alone will 
dramatically improve the morale because in an organization, if 
you allow bad apples to just continue to infect the 
organization, that is exactly what ends up happening.
    Admiral Pekoske. Right.
    Chairman Johnson. Mr. Glawe, we had a hearing about a month 
or two ago on transnational criminal organizations. We focused 
on MS-13. With your background in local law enforcement, the 
priorities on the homeland security side of this Committee have 
been border security, cybersecurity, protecting critical 
infrastructure, and combating Islamic terrorists and any other 
extreme violent actor. It has become so apparent that I would 
say the primary root cause of our unsecured border is our 
insatiable demand for drugs and what that has led to, the 
creation of the drug cartels, these transnational criminal 
organizations.
    As I traveled around Wisconsin on a national security tour 
talking to local, State, and Federal law enforcement, I asked 
them, ``What is the biggest problem you are dealing with?'' 
Without exception, it was drugs--the crime it creates, the 
broken families.
    Speak a little bit about that as your priority in terms of 
getting the intelligence and analyzing that so we can attack it 
effectively.
    Mr. Glawe. Chairman Johnson, thank you for the question, 
and thank you for meeting with me, too. I am extremely 
passionate about it. I would argue that I am sure our friends 
and family, everyone has been impacted by narcotics or 
substance abuse, addiction. It is eroding our communities, and 
the threats are emanating in foreign space. So we have an issue 
with our demand here that also has to have some tough policy 
decisions on how that is going to be addressed.
    But empowering our State and local partners and using the 
fusion centers to identify these threat vectors of how the 
cartels are moving their supply chain narcotics into our 
communities, how they are using the Dark Web, how they are 
using encrypted communication, they have become sophisticated. 
They are Fortune 500 billion-dollar corporations with worldwide 
nexus to move money, people, and resources. To posture the 
intelligence community, the private sector, Department of 
Defense (DOD), and law enforcement in a community approach to 
this is going to be critical, and I look forward, if confirmed, 
to working with the Committee. If there are stovepipes or 
policy or legal impediments, we are going to have to drive 
through them because this has become just an epidemic problem 
in the United States. Thank you for raising it, and I look 
forward to further dialogue and conversations with the 
Committee on how to address this. But it is going to be a 
partnership. At the lowest common denominator, getting them the 
intelligence of the threat environment that is mitigating and 
changing and adaptable all the time because the cartels are 
brilliant, sophisticated adversaries, and it is going to take a 
brilliant, sophisticated network to defeat that adversary.
    Chairman Johnson. When I first joined this Committee, one 
of the first phrases I heard is, ``When you have seen one 
fusion center, you have seen one fusion center.'' So it does 
depend on personnel. It depends on leadership. But in talking 
about what your mission is, what are you going to focus on, how 
can you bring a differentiated product to the table, I cannot 
think of a better niche for you to operate in as really these 
transnational criminal organizations, the drug organizations, 
the gangs--just a scourge on our society.
    The last one for you, Vice Admiral. I am a huge supporter 
of 
K-9 units, and I think you will find a great deal of bipartisan 
support in Congress for increasing the number of units we have. 
Now, they do not come cheap, but as we have held hearings on 
this, there is no technology that can beat the nose of a dog. 
And with the new emerging threats in terms of explosive and 
smaller devices, I think it is just critical.
    So I guess, I definitely want to work with you to do 
everything we can to find the resources, and I am just looking 
for a commitment to K-9 units.
    Admiral Pekoske. Sir, I am also a huge fan of K-9 units. I 
have experience working with them in my Coast Guard background. 
I think they are superb at detecting and also superb at 
deterring behavior. And so you have my commitment to take a 
very close look at that. I think that is one of the ways that 
we can really improve the effectiveness of security.
    Chairman Johnson. Well, I will tell you, one of the things 
I like about this Committee is, first of all, the Members 
attend; they ask excellent questions. I kind of like this 
technique. We let our colleagues ask the questions. I have kind 
of run out of them.
    Let me just say that--I mentioned the priorities of our 
Committee. The fifth that I did not mention was the fact that 
we are committed to making sure the Secretary, his Under 
Secretaries, and everybody in this function of trying to keep 
our homeland safe and secure, that you succeed in your mission. 
So we are dedicated to doing that.
    Let me just say, help us help you. You have to communicate 
with us. We want to do everything we can to support your 
mission because it is just so critical.
    Again, I want to thank you for your past service and your 
willingness to serve again. I thank your family members. You 
are going to see them less because these are such important 
jobs, and we are just so appreciative that you are willing to 
serve your Nation once again in these important capacities.
    Vice Admiral Pekoske has made financial disclosures and 
provided responses to biographical and prehearing questions 
submitted by the Committee.\1\ Without objection, this 
information will be made part of the hearing record, with the 
exception of the financial data, which are on file and 
available for public inspection in the Committee offices.
---------------------------------------------------------------------------
    \1\ The Information of Mr. Pekoske appears in the Appendix on page 
68.
---------------------------------------------------------------------------
    I also want to make sure, without objection, that Senator 
Harris' questions can also be entered in the record\2\. Hearing 
no objection, so ordered.
---------------------------------------------------------------------------
    \2\ The questions of Senator Harris appears in the Appendix on page 
52.
---------------------------------------------------------------------------
    The hearing record will remain open until noon tomorrow, 
July 12th, for the submission of statements and questions for 
the record.
    This hearing is adjourned.
    [Whereupon, at 11:30 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>
</pre></body></html>
